                                                                                                                I




                                                 NATIONAL
                                                  OFFICE OFSCIENCE
                                                           INSPECTOR
                                                                   FOUNDATION
                                                                     GENERAL



$$#,$.
                                                    OFFICE OF INVESTIGATIONS
 4
  0
     or o
                                           CLOSEOUT MEMORANDUM

Case Number: 1-03120072                                                                      Page 1 of 1



       OIG selected this award' as part of a random review of awards for conferences, workshops and
       symposia. In response to our request for costs claimed and incurred for the $6000 grant, the grantee2
       provided a spreadsheet of names and amounts totaling $15,325. The grantee did not show which
       expenses were charged to the NSF grant.

       OIG contacted the organization to request a more detailed account of how the NSF award was
       appropriated. The organization provided a spreadsheet that detailed which participant's travel was
       paid for and how much of the grant was used for each participant. Further, there is no indication that
       the principal investigators3made any false statements to NSF about their use of federal funds.

       Accordingly, this case is closed.




         ' redacted
            redacted
            redacted




NSF OIG Form 2 (1 1/02)
